No.

IN THE
SUPREME COURT OF THE UNITED STATES

ANTHONY ATESPETITIONER,
vs.
MARK INCH,
ASHLEY MOODY, - RESPONDENT(S).

PROOF OF SERVICE
I, Anthony Ates; DC No.: 082828, do swear or declare that on this date,
., 202J_, as required by Supreme Court rule 29 I have served
the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid.

The names and addresses of those served are as follows:
Office Of the Attorney General, Sun Trust International Center, One S.E., Third
Avenue, Suite 900, Miami, Florida 33131.

I declare under the penalty of perjury that the foregoing is true and correct.
1

Executed on

I*. /. n

, 202]_■

Antfoony Atep; DC No.: 082828

2

